Office of Material Loss Reviews
Report No. MLR-10-010


Material Loss Review of Bank of
Lincolnwood, Lincolnwood, Illinois




                                  December 2009
                                      Executive Summary

                                      Material Loss Review of Bank of Lincolnwood,
                                      Lincolnwood, Illinois
                                                                                       Report No. MLR-10-010
                                                                                              December 2009

Why We Did The Audit
On June 5, 2009, the Illinois Department of Financial and Professional Regulation (IDFPR), Division of
Banking, closed the Bank of Lincolnwood (Lincolnwood), Lincolnwood, Illinois, and named the FDIC as
receiver. On June 19, 2009, the FDIC notified the Office of Inspector General (OIG) that Lincolnwood’s total
assets at closing were $217.4 million and the estimated loss to the Deposit Insurance Fund (DIF) was
$81.4 million. As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the OIG conducted a
material loss review of the failure of Lincolnwood.

The audit objectives were to (1) determine the causes of the financial institution’s failure and resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including
implementation of the Prompt Corrective Action (PCA) provisions of section 38.

Background
Lincolnwood was a state-chartered nonmember bank insured since February 20, 1954. The bank was
headquartered in Lincolnwood, Illinois, and had one branch that was also located in Lincolnwood. The
bank was a wholly owned subsidiary of Lincolnwood Bancorp, Inc. Lincolnwood engaged principally in
commercial real estate (CRE) and acquisition, development, and construction (ADC) lending within its
local marketplace.

Audit Results
Causes of Failure and Material Loss

Lincolnwood failed because the bank’s Board and management did not implement adequate (1) risk
management practices pertaining to a significant concentration in ADC loans, (2) controls related to loan
underwriting and credit administration, and (3) risk analysis and recognition practices. Also contributing
to Lincolnwood’s losses was management’s failure to take timely and effective action to address apparent
violations and contraventions of interagency policy. Further, the Board and management paid insufficient
attention to controls over insider activity, a contributing factor in the bank’s failure. Finally,
Lincolnwood’s reliance on volatile funding sources for its loan portfolio played a lesser, yet important
role, in the bank’s failure.

Examiners repeatedly expressed concern about Lincolnwood’s risk management practices in the years
preceding the institution’s failure and made a number of recommendations for improvement. However,
the actions taken by Lincolnwood’s Board and management were not timely or adequate. In a declining
real estate market, Lincolnwood could not withstand significant ADC loan losses, which led to quick and
substantial erosion of the bank’s capital and earnings, and significantly impaired the bank’s liquidity
position. Ultimately, on June 5, 2009, the IDFPR closed Lincolnwood due to the bank’s overall poor
financial condition and inability to raise capital at the required level, and named the FDIC as receiver.

The FDIC’s Supervision of Lincolnwood

The FDIC’s supervisory efforts identified key risks and made recommendations related to the
performance of Lincolnwood’s management, the bank’s ADC and relationship concentrations, loan
underwriting and credit administration deficiencies and weak risk management practices, reliance on non-
   Executive Summary                  Material Loss Review of Bank of Lincolnwood,
                                      Lincolnwood, Illinois
                                                                                     Report No. MLR-10-010
                                                                                            December 2009

core deposits and unsatisfactory liquidity levels, and inadequate capital position. Examiners also reported
apparent violations of law and contraventions of policy associated with the institution’s lending practices
and insider transactions. The FDIC, in conjunction with IDFPR, also pursued enforcement actions to
correct problems as the result of the 2005, 2008, and 2009 examinations. However, earlier and stronger
supervisory action could have been taken, in light of the significant risk that the bank’s business strategy
presented during the 2005 and 2008 examinations. Such action may have resulted in management being
more responsive to examiner concerns regarding risks and mitigated, to some extent, the losses incurred
by the DIF.

With respect to PCA, we concluded that the FDIC properly implemented applicable PCA provisions of
section 38 based on the supervisory actions taken for Lincolnwood.

Management Response

After we issued our draft report, we met with management officials to further discuss our results. The
officials indicated that there were no corrections or additions needed to the report.

On December 14, 2009, the Director, DSC, provided a written response to the draft report. DSC
reiterated the OIG’s conclusions regarding the causes of Lincolnwood’s failure. With regard to our
assessment of the FDIC’s supervision of Lincolnwood, DSC stated that the January 2008 examination
resulted in the recommendation for a Memorandum of Understanding, which became effective in October
2008. At the September 2008 visitation, the examiner reviewed Lincolnwood’s corrective actions, noted
continued problems and deterioration, and recommended that a full-scope examination start in February
2009. As a result of that examination, a formal enforcement action, effective in April 2009, was issued
requiring Lincolnwood’s Board and management to address weak risk management practices and
formulate a contingency liquidity plan.




                                  To view the full report, go to www.fdicig.gov
                                Contents
                                                                    Page
Background                                                            2

Causes of Failure and Material Loss                                   2
  Loan Concentrations                                                 3
  Loan Underwriting and Credit Administration                         5
  Risk Analysis and Recognition Practices                             6
  Apparent Violations and Contraventions of Interagency Policy        6
    Statements
  Implementation of Examiner Recommendations                          6
  Insider Activity                                                    7
  Reliance on Wholesale Funding Sources                               8

The FDIC’s Supervision of Lincolnwood                                 8
   Supervisory History                                                9
   Supervisory Response to Lincolnwood’s Risks                       12
   Implementation of PCA                                             15

Corporation Comments                                                 17

Appendices
  1. Objectives, Scope, and Methodology                              18
  2. Glossary of Terms                                               20
  3. Acronyms                                                        22
  4. Corporation Comments                                            23

Tables
   1. Financial Condition of Lincolnwood                              2
   2. Lincolnwood’s Non-Core Funding Sources                          8
   3. Lincolnwood’s Examination and Visitation History                9
        from 2004 to 2009
   4. Lincolnwood’s Capital Ratios                                   16

Figures
   1. Lincolnwood’s CRE and ADC Loan Composition                      3
   2. Lincolnwood’s ADC Loan Concentration Relative to Peer Group     4
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, Virginia 22226                                            Office of Inspector General


DATE:                                     December 16, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of Bank of Lincolnwood,
                                          Lincolnwood, Illinois (Report No. MLR-10-010)

As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of Bank of
Lincolnwood (Lincolnwood), Lincolnwood, Illinois. On June 5, 2009, the Illinois
Department of Financial and Professional Regulation (IDFPR), Division of Banking,
closed the institution and named the FDIC as receiver. On June 19, 2009, the FDIC
notified the OIG that Lincolnwood’s total assets at closing were $217.4 million and the
material loss to the Deposit Insurance Fund (DIF) was $81.4 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of the
institution, including implementation of the PCA provisions of section 38 of the FDI Act.
This report presents the FDIC OIG’s analysis of Lincolnwood’s failure and the FDIC’s
efforts to ensure Lincolnwood’s management operated the bank in a safe and sound
manner. We are not making recommendations. Instead, as major causes, trends, and



1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices, including internal control systems, and compliance with applicable laws and
regulations, and (2) issues related guidance to institutions and examiners.
common characteristics of financial institution failures are identified in our reviews, we
will communicate those to management for its consideration. As resources allow, we
may also conduct more in-depth reviews of specific aspects of the FDIC’s supervision
program and make recommendations, as warranted. Appendix 1 contains details on our
objectives, scope, and methodology; Appendix 2 contains a glossary of terms; and
Appendix 3 contains a list of acronyms used in the report. Appendix 4 contains the
Corporation’s comments on this report.


Background
Lincolnwood was a state-chartered nonmember bank insured by the FDIC on
February 20, 1954. Lincolnwood was headquartered and operated a main office and one
branch in Lincolnwood, Illinois. Lincolnwood was a full-service community bank that
specialized in residential and commercial real estate (CRE) loans, including residential
acquisition, development and construction (ADC) loans. The institution was wholly-
owned by a one-bank holding company, Lincolnwood Bancorp, Inc., in Lincolnwood,
Illinois. Table 1 provides details on Lincolnwood’s financial condition, as of December
2008, and for the 4 preceding calendar years.

  Table 1: Financial Condition of Lincolnwood
      Financial Measure           Dec-08       Dec-07        Dec-06         Dec-05    Dec-04
  Total Assets ($000)            $217,729     $210,218      $237,702       $233,109   $224,276
  Total Loans ($000)             $181,147     $189,461      $210,846       $186,881   $190,476
  Total Deposits ($000)          $201,134     $190,405      $215,366       $212,867   $206,080
  Net Income (Loss) ($000)        ($975)       $4,242        $6,540         $5,059     $4,055
 Source: OIG analysis of Uniform Bank Performance Reports (UBPR) for Lincolnwood.



Causes of Failure and Material Loss
Lincolnwood failed because the bank’s Board and management did not implement
adequate (1) risk management practices pertaining to a significant concentration in ADC
loans, (2) controls related to loan underwriting and credit administration, and (3) risk
analysis and recognition practices. Also contributing to Lincolnwood’s losses was
management’s failure to take timely and effective action to address apparent violations
and contraventions of interagency policy. Further, Board and management paid
insufficient attention to controls over insider activity, a contributing factor in the bank’s
failure. Finally, Lincolnwood’s reliance on volatile funding sources for its loan portfolio
played a lesser, yet important role, in the bank’s failure.

Examiners repeatedly expressed concern about Lincolnwood’s risk management practices
in the years preceding the institution’s failure and made a number of recommendations
for improvement. However, the actions taken by Lincolnwood’s Board and management
were not timely or adequate. In a declining real estate market, Lincolnwood could not


                                                 2
withstand significant ADC loan losses, which led to quick and substantial erosion of the
bank’s capital and earnings, and significantly impaired the bank’s liquidity position.
Ultimately, on June 5, 2009, the IDFPR closed Lincolnwood due to the bank’s overall
poor financial condition and inability to raise capital at the required level, and named the
FDIC as receiver.

Loan Concentrations

Lincolnwood’s management failed to effectively measure and monitor the high risk
associated with its loan portfolio, which was concentrated in high-risk CRE loans, and
specifically centered in ADC loans. Figure 1 illustrates the composition of
Lincolnwood’s CRE and ADC loan portfolio from December 2004 through March 2009.

Figure 1: Lincolnwood’s CRE and ADC Loan Composition

                                  $160              Other CRE
                                                                     $144
                                                  ADC Loans
                                  $140                  $122                       $121
                                             $117
                                                                    $40
   CRE and ADC Loans (Millions)




                                  $120                                                        $96        $95
                                                          $37                  $35
                                  $100      $48
                                                                                             $28        $31
                                  $80

                                  $60
                                                                    $104
                                                          $85                  $86
                                  $40       $69                                              $68        $64

                                  $20

                                   $0
                                         Dec-2004     Dec-2005   Dec-2006   Dec-2007      Dec-2008   Mar-2009
                                                                    Period Ended

Source: Consolidated Reports of Condition and Income (Call Report) for Lincolnwood.

Although Lincolnwood developed and maintained a high concentration in CRE loans, the
significant losses associated with its loan portfolio were centered in the bank’s ADC
concentration. In addition, Lincolnwood’s ADC concentration as a percentage of total
capital was significantly above the bank’s peer group averages from 2004 through 2008,
as shown in Figure 2.




                                                                      3
Figure 2: Lincolnwood’s ADC Loan Concentration Relative to Peer Group

                                 500%
    ADC Loans to Total Capital                                                465%

                                                               391%                             399%          372%
                                 400%
                                               364%

                                 300%
                                                     Lincolnwood
                                                     Peer Group Average
                                 200%

                                               80%             91%            107%             91%            90%
                                 100%


                                  0%
                                                4




                                                                5




                                                                                6




                                                                                                7




                                                                                                               8
                                             00




                                                             00




                                                                             00




                                                                                             00




                                                                                                            00
                                          -2




                                                          -2




                                                                          -2




                                                                                          -2




                                                                                                         -2
                                           c




                                                           c




                                                                         c




                                                                                           c




                                                                                                          c
                                        De




                                                        De




                                                                      De




                                                                                        De




                                                                                                       De
                                                                          Period Ended

Source: UBPRs for Lincolnwood.

According to Financial Institution Letter (FIL)104-2006, entitled, Concentrations in
Commercial Real Estate, Sound Risk Management Practices, dated December 12, 2006,
CRE loan concentrations can pose substantial potential risks and can inflict large losses
on institutions. Since ADC loans are a subset of CRE loans, the guidance emphasizes the
need for increased supervisory concern for banks with significant ADC concentrations
and states that institutions with total reported loans for construction, land development,
and other land representing 100 percent or more of the institution’s total capital may
warrant greater supervisory scrutiny.3

Further compounding the bank’s concentration risk was the speculative nature of its ADC
lending associated with residential properties that were not pre-sold or pre-leased, and
that were dependent on the market to absorb the properties when completed. In addition,
in 2007 and 2008, the bank had several large relationship concentrations, each of which
exceeded 25 percent of Tier 1 Capital.4 For example, the February 2009 examination
report5 identified a relationship concentration which consisted of five loans, under
various entities, totaling $15.6 million that were, in effect, secured by three residential

3
  Previous guidance issued by the FDIC included FIL-110-98, dated October 8, 1998, entitled Internal and
Regulatory Guidelines for Managing Risks Associated with Acquisition, Development, and Construction
Lending, defines ADC lending as a highly specialized field with inherent risks that must be managed and
controlled to ensure that the activity remains profitable.
4
  As stated in the Concentrations section of examination reports, concentrations of obligations, direct and
indirect, are determined, in part, by the following guideline: concentrations of 25 percent or more of Tier 1
Capital by individual borrower, small interrelated group of individuals, single repayment source or
individual project.
5
  The February 2009 examination report was drafted but not finalized and issued to Lincolnwood prior to
its failure. Unless otherwise noted in this report, references to examination dates will refer to the month
and year of the examination start dates.


                                                                                    4
properties and a residential lot. This concentration was adversely classified by examiners
and noted as an example of management’s failure to diversify risk. The level of risk
related to ADC and relationship concentrations was a significant factor in the bank’s loan
quality problems when the real estate market deteriorated.

Loan Underwriting and Credit Administration

Weaknesses in Lincolnwood’s loan underwriting and credit administration contributed to
the significant deterioration of the bank’s asset quality. Lincolnwood’s Board and
management failed to establish and follow adequate controls related to these areas. As
early as the April 2005 examination, examiners noted numerous underwriting and credit
administration weaknesses. Further, examiners reminded management that delays in
correcting weaknesses and continued poor oversight may further weaken credit
administration and increase the overall risk to the institution. Such weaknesses included:

Loan Underwriting

      When prepared, loan presentations to the Board lacked pertinent information and
       relevant credit factors needed to make informed and appropriate credit decisions.
       Specifically, examiners noted that one or more of the following items was missing
       from loan presentations: the purpose of the loan, capacity of the borrower or
       guarantor to repay the debt, debt-to-income calculations, and collateral protection.

      Failure to obtain or properly document the review of appraisals before loan
       origination.

      Loan files that lacked officer memoranda to document important discussions or
       actions, thus making it difficult to ascertain whether any material events affecting
       credit quality had occurred since the loan origination.

      Lack of feasibility analyses for evaluation of large complex credits.

      Lack of shock analyses and global cash flow analyses on borrowers with multiple
       projects or properties.

Credit Administration

      Inappropriate use of interest reserves for loans where the underlying real estate
       project was not performing as expected.

      Failure to develop an adequate loan review and grading system to identify
       problem loans.

      Lack of documentation of a process to reconcile internal loan ratings with the
       external loan review results.

      Failure to obtain appraisals for loan renewals.


                                            5
Risk Analysis and Recognition Practices

A significant number of risk analysis and recognition weaknesses also contributed to the
bank’s asset quality problems. Lincolnwood had a high level of past due and nonaccrual
loans, which led to further deterioration in the bank’s loan quality and contributed to
significant loan losses.

Other risk analysis weaknesses included the:

      failure to properly report nonaccrual loans and downgrade credits when
       appropriate and perform portfolio-level stress testing or sensitivity analysis, and

      lack of a formal method to monitor the loan portfolio and address renewals and
       extensions of loans within the bank’s loan policy.

Further, Lincolnwood’s management did not consistently employ an Allowance for Loan
and Lease Losses (ALLL) methodology in compliance with the December 13, 2006,
Interagency Policy Statement on Allowance for Loan and Lease Losses. This policy
states that each institution must analyze the collectibility of its loans and maintain an
ALLL at an appropriate level. At the January 2008 and February 2009 examinations,
examiners concluded that Lincolnwood’s ALLL was insufficient to protect against the
level of potential loss in the bank’s loan portfolio.

Apparent Violations and Contraventions of Interagency Policy Statements

According to the Examination Manual, it is important for a financial institution’s Board
to ensure that bank management is cognizant of applicable laws and regulations, develops
a system to effect and monitor compliance, and when violations do occur, makes
corrections as quickly as possible. In addition, the Examination Manual states that the
underlying rationale for laws and regulations is the protection of the general public by
establishing boundaries and standards within which banking activities may be conducted.

Examiners cited apparent violations and contraventions in each of the bank’s
examinations from 2004 through 2009 that involved unsafe and unsound practices and
deficiencies in appraisals, real estate lending, external auditing programs, and the bank’s
ALLL methodology. In addition, Lincolnwood had not had an external audit performed
since year-end 2004. Such audits help ensure that banks maintain a system of
independent review and provide appropriate and timely communication to the Board and
bank management. Lincolnwood’s Board and management failed to take timely and
effective action to address these findings, as evidenced by the number of repeat apparent
violations and contraventions.

Implementation of Examiner Recommendations

Prior to Lincolnwood’s failure, FDIC and IDFPR examiners repeatedly expressed
concerns about the institution’s financial condition and risk management practices and
made recommendations for improvement. However, actions taken by Lincolnwood’s


                                             6
Board and management were not always timely or effective to adequately address
examiner concerns.

      April 2005 examination. Examiners concluded that several deficiencies
       identified at prior regulatory examinations had received little, if any, attention by
       bank management. Examiners noted that recommendations related to measuring
       and monitoring procedures for Sensitivity to Market Risk had not been
       implemented despite management’s promised corrective action.

      January 2008 examination. Examiners concluded that the bank’s
       responsiveness to examiner recommendations was insufficient. Although
       management had taken action to address some of the examiners’
       recommendations, the bank had not addressed recommendations pertaining to
       apparent violations and contraventions that had been identified as far back as the
       April 2005 and May 2006 examinations.

      February 2009 examination. Examiners concluded that although the January
       2008 examination included a recommendation for bank management to improve
       loan procedures, limits, and monitoring, Lincolnwood’s management had shown a
       total disregard for the recommendation and several other prior recommendations.
       For example, examiners repeated recommendations related to concentration
       monitoring made at the January 2008 examination.

Insider Activity

The primary responsibility for ensuring compliance with laws and regulations related to
insider transactions rests directly with the Board and bank management. Based on
examination reports and examiner interviews, Lincolnwood’s Board and management’s
lack of attention to controls negatively impacted the bank’s ability to conduct insider
activities in a safe and sound manner and was a contributing factor to the bank’s failure.
According to examiners, those insider activities included:

      excessive compensation,

      the payment of dividends,

      payments made to credit cards and bank accounts related to bank officials,

      the lack of documentation or inadequate documentation to support loans made
       and wire transfers, and

      fees paid to consultants.

Apparent violations of Regulation O were noted in the 2008 examination and were of
specific concern due to citations of preferential terms to insiders. Examiners for the
February 2009 examination suggested that the Board immediately implement controls
that would govern insider lending. Examiners stated that at various times over the years,


                                             7
management was uncooperative and not receptive to examiner recommendations and
comments on preventing violations of insider lending laws and regulations. Specifically,
during the February 2009 examination, examiners spent an inordinate amount of time
researching numerous transactions that lacked formal disclosure of insider interests or
involvement. As discussed earlier, Lincolnwood had not had an external audit performed
since year-end 2004, which left no mechanism for an independent review of insider
activity that would be reported to the Board. The apparent violations and insider abuses
might have been identified earlier, if such an independent review had been conducted.

Reliance on Wholesale Funding Sources

While not a primary contributing factor to the bank’s failure, Lincolnwood became
increasingly dependent on non-traditional, volatile funding sources, particularly time
deposits of $100,000 or greater and brokered deposits, to fund its loan portfolio.
Lincolnwood decided to begin funding its operations with brokered deposits during 2005
because of an inability to attract local deposits. Lincolnwood’s reliance on brokered
deposits more than doubled from $22 million in 2005 to $50 million by 2008, as shown
in Table 2. Further, 31 percent of the brokered deposits at year-end 2008 were scheduled
to mature within 1 year.

According to the Examination Manual, these funding sources present potential risks, such
as higher costs and increased volatility. Lincolnwood’s management permitted the
bank’s loan concentrations and funding structures to exist without developing and
implementing adequate controls to identify, measure, monitor, and control the associated
risk. In addition, in multiple examinations, examiners recommended that the bank
develop a written contingency liquidity plan (CLP) to improve the monitoring of liquidity
and dependency levels.

     Table 2: Lincolnwood’s Non-Core Funding Sources
                                     Time Deposits of        Brokered Deposits
           Period Ended
                                  $100,000 or More ($000s)        ($000s)
          December 2004                     $37,890                 $0
          December 2005                     $56,912               $21,896
          December 2006                     $76,786               $36,450
          December 2007                     $40,252               $23,198
          December 2008                     $34,053               $49,724
     Source: OIG Analysis of UBPRs for Lincolnwood.



The FDIC’s Supervision of Lincolnwood
The FDIC’s supervisory efforts identified key risks and made recommendations related to
the performance of Lincolnwood’s management, the bank’s ADC and relationship
concentrations, loan underwriting and credit administration deficiencies and weak risk
management practices, reliance on non-core deposits and unsatisfactory liquidity levels,
and inadequate capital position. Examiners also reported apparent violations of law and


                                                 8
contraventions of policy associated with the institution’s lending practices and insider
transactions. The FDIC, in conjunction with IDFPR, also pursued enforcement actions to
correct problems as the result of the 2005, 2008, and 2009 examinations. However,
earlier and stronger supervisory action could have been taken, in light of the significant
risk that the bank’s business strategy presented during the 2005 and 2008 examinations.
Such action may have resulted in management being more responsive to examiner
concerns regarding risks and mitigated, to some extent, the losses incurred by the DIF.

Supervisory History

The FDIC and IDFPR provided ongoing supervision of Lincolnwood through risk
management examinations, on-site visitations, offsite reviews, and supervisory actions.
Table 3 summarizes key information related to Lincolnwood’s on-site examinations and
visitations conducted by the FDIC and IDFPR, including the bank’s Uniform Financial
Institutions Rating System (UFIRS) ratings.6

Table 3: Lincolnwood’s Examination and Visitation History from 2004 to 2009
    Examination     Date Examination
        and              Report                          Supervisory
     Visitation      Transmitted to                        Ratings
     Start Date       Lincolnwood          Agency          (UFIRS)             Supervisory Action
     03/01/2004         04/21/2004          IDFPR          222212/2                  None
     04/04/2005a        06/14/2005           FDIC         233223/3        Memorandum of Understanding
                                                                                    (MOU)
                        09/16/2005           FDIC         222223/2         None – MOU issued in June
                                                                           2005 was withdrawn by the
                                                                                     FDIC
     08/17/2005       Not Applicable         FDIC         No Rating                  None
     (Visitation)
     05/08/2006         08/17/2006          IDFPR         222222/2                      None
      1/07/2008         05/30/2008           FDIC         344232/3                      MOU
                                                                               (effective 10/31/2008)
     09/22/2008       Not Applicable         FDIC         No Rating                     None
     (Visitation)
     02/23/2009         Not Issued          IDFPR/        555555/5               FDIC PCA Letter
                                             FDIC                               (issued 03/25/2009)
                                                                             FDIC section 8e Removal
                                                                                     (Proposed)
                                                                                 Illinois section 51
                                                                               (effective 03/31/2009)
                                                                           Cease and Desist Order (C&D)
                                                                               (effective 04/21/2009)
Source: Reports of Examination (ROE) for Lincolnwood and DSC supervisory documentation.



6
 Financial institution regulators and examiners use the UFIRS to evaluate a bank’s performance in six
components represented by the CAMELS acronym: Capital adequacy, Asset quality, Management
practices, Earnings performance, Liquidity position, and Sensitivity to market risk. Each component, and
an overall composite score, is assigned a rating of 1 through 5, with 1 having the least regulatory concern
and 5 having the greatest concern.



                                                     9
On-site Visitations

Of the three visitations conducted at Lincolnwood from 2005 to 2008, two were related to
safety and soundness and are discussed below.

      August 2005. During this visitation, Lincolnwood management provided
       additional information to the FDIC for examiner review of loans that had been
       adversely classified during the April 2005 examination. Based on those
       classifications and other deficiencies, examiners for the April 2005 examination
       rated management, asset quality, and the bank’s composite rating as “3”; and
       proposed an MOU. The results of the visitation substantiated the adverse
       classification determinations in the examination report transmitted to
       Lincolnwood on June 14, 2005. Notwithstanding, the FDIC upgraded the
       component and composite ratings from “3” to “2” and the bank’s condition to
       “adequate”, and reissued the April 2005 examination report on September 16,
       2005 without an MOU. DSC examination documentation and correspondence did
       not document the basis for upgrading the examination ratings and withdrawing
       the MOU.

      September 2008. The FDIC conducted this visitation to follow up on the
       deficiencies identified during the January 2008 examination and assess the
       corrective actions taken by Lincolnwood. The visitation results showed a
       continuing deterioration of the bank’s loan portfolio, reduced earnings, and lower
       capital levels, indicating elevated risk for the institution. Underwriting problems
       were also identified for new loans, and examiners determined that bank
       management had not been proactive in managing nonaccrual loans and overdrafts.

Offsite Reviews

FDIC examiners also conducted two offsite reviews of Lincolnwood during April 2008
and June 2008. Those reviews indicated that there was a probability that Lincolnwood’s
composite rating would be downgraded due to deterioration in the bank’s real estate loan
portfolio. Subsequently, the bank’s composite rating and all of the component ratings
were downgraded at the February 2009 examination.

Supervisory Actions

The FDIC and IDFPR took various supervisory actions as a result of three of the five
examinations performed from 2004 to 2009, including making recommendations in the
examination reports related to areas of the bank’s operations where improvements were
needed and imposing informal and formal actions. A brief description of the these
actions follows.

      2005 Proposed MOU. The FDIC and IDFPR issued an MOU to Lincolnwood
       with the transmittal of the examination report for the April 2005 examination.
       The MOU included provisions and guidelines that would assist Lincolnwood in
       restoring the bank to a fully satisfactory condition. Lincolnwood’s Board and


                                           10
    management disagreed with the FDIC’s examination ratings and conclusions and
    met with FDIC staff at the FDIC Chicago Regional Office on July 29, 2005. As a
    result of this meeting, the FDIC performed a visitation in August 2005 to review
    additional information related to the adversely classified assets that were central
    to the less than satisfactory asset quality rating given by examiners during the
    April 2005 examination. As discussed above, the MOU was withdrawn following
    the visitation.

   2006 and 2008 examination recommendations. The FDIC and IDFPR
    identified risks and made recommendations to address risk management practices
    pertaining to the institution’s ADC loan concentration, reliance on non-core
    funding sources, loan underwriting and credit administration practices, apparent
    violations of laws and regulations and contraventions of interagency policy, and
    insider transactions.

   October 2008 MOU. The January 2008 examination report, issued to the bank on
    May 30, 2008, included an MOU that outlined corrective actions related, but not
    limited to:

          capital levels,
          CRE concentration,
          deteriorated asset quality with adverse classifications,
          loan review and delinquencies,
          lending policy and interest reserves,
          ALLL methodology,
          apparent violations and contraventions of policy, and
          liquidity and a CLP.

   April 2009 C&D. Examiners for the February 2009 examination determined that
    the bank’s condition had become critically deficient due to ineffective bank
    management, deficient capital levels, loan portfolio losses and deterioration,
    extremely weak liquidity levels, and the lack of earnings.

    The FDIC, IDFPR, and Lincolnwood’s Board met on March 31, 2009 at the
    FDIC’s Chicago Regional Office. Lincolnwood’s Board was informed of the
    results of the ongoing examination and provided with a draft, jointly-issued C&D
    to correct deficiencies; a Notice of Intent to Take Possession and Control Pursuant
    to section 51 of the Illinois Banking Act presented by IDFPR; and a C&D issued
    by IDFPR to restrict Lincolnwood from accepting, renewing, or rolling over
    uninsured deposits.

    Lincolnwood signed the C&D on April 7, 2009, which became effective on
    April 21, 2009. Lincolnwood’s Board also accepted the resignation of one of the
    bank’s senior managers on April 7, 2009, thereby precluding the use of either
    PCA or a section 8e Removal Order to require removal by the FDIC. The FDIC’s




                                         11
       examiners remained on-site at Lincolnwood to monitor liquidity and operations
       until the bank’s closure.

On June 5, 2009, the IDFPR closed Lincolnwood due to its overall poor financial
condition and the bank’s inability to raise capital at the required level, and named the
FDIC as receiver.

Supervisory Response to Lincolnwood’s Risks

A stronger supervisory response after the 2005 and 2008 examinations appears to have
been warranted based on Lincolnwood’s risk profile and its lack of adequate and timely
action to address loan concentrations, weak risk management practices, and safety and
soundness deficiencies. An informal supervisory action was proposed after the 2005
examination but was ultimately withdrawn. After the January 2008 examination, it was
not until March 2009 before a formal supervisory action was taken to address
Lincolnwood’s condition, which by that time had deteriorated to the point where the
probability of the bank’s failure was high. Examination coverage of the key risks at
Lincolnwood follows.

April 2005 Examination

Lincolnwood had an elevated risk profile as evidenced in both the original and revised
April 2005 examination reports. Examiners rated bank management less than satisfactory
in both examination reports and detailed numerous deficiencies related to the bank’s
Board, management, and asset quality, some of which had been previously reported by
examiners but not corrected by bank management. As a result of this examination, the
FDIC issued an MOU to address deficiencies and risks related to bank management,
concentrations, asset quality, loan review, and the ALLL methodology.

As previously discussed, a follow-up visitation by the FDIC was conducted in August
2005. While the ratings were upgraded and the MOU withdrawn, many of the
deficiencies and concerns reported by examiners in the original and revised 2005
examination report remained basically unchanged. Had the MOU remained in effect as a
result of the April 2005 examination, the FDIC would have more closely monitored
Lincolnwood’s operations given that the bank would have been required to provide
quarterly progress reports to the FDIC outlining the corrective actions planned or taken
by the bank to address deficiencies.

May 2006 Examination

The IDFPR May 2006 examination found the overall condition of Lincolnwood to be
satisfactory and assigned it uniform composite and component performance ratings of
“2”. However, the examination report cited deficiencies that had been previously
identified; new concerns regarding the bank’s condition, indicating a continued lack of
sufficient attention to examiner concerns; increased deterioration in the bank’s asset
quality; and continued growth in high-risk ADC lending. Specifically, this examination
report stated that the bank’s (1) loan concentrations had increased since the April 2005


                                             12
examination, increasing the risk profile of the bank, (2) adversely classified assets totaled
$4.8 million, representing a substantial increase from 0.27 percent as of December 31,
2004 to 22 percent as of March 31, 2006, and (3) loans classified as special mention
totaled $4.9 million. In addition, the delinquency ratio for loans had increased to
7.78 percent and was considered high compared to the bank’s peer group ratio of
1.27 percent.

Further, the report stated that the bank’s risk management practices were not adequate
relative to economic conditions and asset concentrations, and included multiple
recommendations for bank management to:

      reduce individual and portfolio CRE concentration levels to reduce the bank’s
       rising risk level and avoid potential credit problems;
      improve credit administration, the ALLL methodology, and funds management
       practices; and
      correct apparent violations of laws and regulations.

Also, as previously shown in Figure 2, between December 2005 and December 2006,
Lincolnwood’s ADC concentration increased from 391 percent to 465 percent of total
capital compared to 91 percent to 107 percent for the bank’s peer group—further
increasing the bank’s risk profile. The risks identified in the 2006 examination report
seem to be in contrast with the broader definition of a “2” rating for the management and
asset quality components, which indicate that (1) bank management is satisfactory with
respect to risk management practices relative to the institution’s size, complexity, and
risk profile and (2) weaknesses in asset quality and credit administration practices
warrant a limited level of supervisory attention.

No Examinations or Visitations in 2007

Lincolnwood remained on an 18-month examination schedule given its composite “2”
rating and other factors in 2006, versus a 12-month examination schedule required for
institutions assigned equal to or worse than a composite “3” rating. Consequently, a risk
management examination was not performed in 2007, since the FDIC’s April 2005 and
IDFPR’s May 2006 examinations had rated the bank’s condition as satisfactory and no
active enforcement actions were in place. The lack of an examination or visitation during
this period provided the opportunity for further deterioration in the bank’s overall
operations and asset quality that was not detected and addressed by the FDIC and IDFPR.
By December 2007, although the bank’s ADC concentration had decreased to
399 percent of total capital, when compared to the bank’s peer group’s level of 91 percent
(Figure 2), the bank’s level of concentration still presented significant risk to
Lincolnwood and was nearly three times greater than the 2006 supervisory criteria of
100 percent.

January 2008 Examination

The January 2008 examination report stated that Lincolnwood’s Board and bank
management needed to address various aspects of the bank’s operations, including:


                                             13
          the concentration of ADC loans;
          the deterioration in asset quality and adverse classifications, which totaled
           153 percent of capital;
          loan delinquencies;
          the inappropriate use of interest reserves;
          inadequate loan review processes;
          insider loans and abuses;
          inadequate ALLL methodology and funding; and
          the need for improved liquidity and an adequate CLP.

Lincolnwood’s Board and management were also criticized for not taking action to
effectively correct prior examination criticisms and recurring apparent violations and
policy contraventions. The examination further determined that the bank’s capital levels
were strained due to the loan deterioration and concentration and found that
Lincolnwood’s liquidity position was diminishing.

FDIC examiners discussed a variety of supervisory enforcement actions including a
C&D, a section 39 supervisory enforcement plan, civil money penalties, and an MOU,
and decided to issue an MOU to address Lincolnwood’s problems and deteriorating
financial condition. The MOU required that Lincolnwood’s Board provide quarterly
progress reports to the FDIC and IDFPR. According to examiners, the FDIC prefers that
a financial institution agree to MOU provisions and sign the agreement shortly after the
bank receives it. However, this did not happen in the case of Lincolnwood. Specifically,
the FDIC transmitted the examination report and MOU to Lincolnwood on May 30,
2008, and extensive negotiations regarding the MOU provisions occurred. Those
negotiations ended when Lincolnwood’s Board signed the MOU on October 31, 2008 –
about 5 months after the January 2008 examination had been completed.

February 2009 Examination

The FDIC and IDFPR issued a joint C&D, effective April 21, 2009, based on the results
of the February 2009 examination. The C&D was agreed to and signed by
Lincolnwood's Board on April 7, 2009 and contained 16 major provisions that included
the following:

      prohibitions against certain lending activities,
      requirements to increase the ALLL,
      restrictions on the payment of dividends,
      prohibitions on transferring assets to insiders,
      restoration of capital,
      development of a liquidity plan,
      obtaining FDIC written approval for additions to the Board and management, and
      hiring an independent party to operate the bank.

FDIC examiners remained on-site at Lincolnwood to monitor liquidity and operations
until the bank closure on June 5, 2009.


                                            14
Overall Assessment of Supervisory Actions

We recognize that the FDIC’s supervisory and enforcement actions issued in October
2008 and April 2009 addressed deficiencies at the bank. However, significant
deterioration in Lincolnwood’s asset quality had occurred before these actions were
taken, and were compounded by the effects of poor risk management practices, and the
ADC loan concentration. In retrospect, stronger supervisory action at earlier
examinations, particularly the April 2005 and January 2008 examinations, may have been
prudent to address risks identified at those examinations that, ultimately, led to the bank’s
failure.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. PCA establishes a system of restrictions and
mandatory and discretionary supervisory actions that are to be triggered depending on an
institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
PCA requirements by establishing a framework for taking prompt corrective action
against insured nonmember banks that are not adequately capitalized. The FDIC
properly implemented applicable PCA provisions of section 38 based on the supervisory
actions taken for Lincolnwood.

Table 4 shows Lincolnwood’s PCA capital ratios between December 31, 2004 and
December 31, 2008. Lincolnwood’s capital category increased from Adequately
Capitalized in 2004 to Well Capitalized during the first quarter of 2005 after the bank
received a significant capital injection from its bank holding company. Lincolnwood
remained in the Well Capitalized category until the February 2009 examination
determined that the bank’s capital level had fallen to Critically Undercapitalized due to
capital adjustments that were required to adequately fund the bank’s ALLL and address
other losses that had occurred.




                                             15
        Table 4: Lincolnwood’s Capital Ratios
                                 Tier 1        Tier 1 Risk-     Total Risk-
          Period Ending         Leverage          Based           Based             Capital Category
                                 Capital         Capital         Capital
          Well Capitalized
          Minimum PCA          5% or more       6% or more      10% or more
           Thresholds
        Lincolnwood’s Capital Levels
              Dec-04              7.83%            8.57%            9.33%         Adequately Capitalized
              Dec-05              9.19%            9.70%           10.65%             Well Capitalized
              Dec-06              8.53%            9.13%           10.09 %            Well Capitalized
              Dec-07              9.11%            9.73%           10.89%             Well Capitalized
                       *
              Dec-08              1.91%            2.17%            3.47%       Critically Undercapitalized
      Source: UBPR and ROEs for Lincolnwood.
    *
     These ratios were adjusted during the February 2009 examination to account for additional funding
    needed for the bank’s ALLL and for losses. The bank’s PCA category was Well Capitalized based on
    the data originally filed in its Call Report as of December 31, 2008. After the February 2009 examination
    began, Lincolnwood amended the bank’s December 2008 Call Report to make adjustments for additional
    ALLL amounts based on interim examination results. Those adjustments lowered the bank’s PCA
    category to Adequately Capitalized. After the examination was completed and results were analyzed, the
    bank’s capital category was lowered to Critically Undercapitalized.

On November 14, 2008, Lincolnwood submitted a request for funds from the Troubled
Asset Relief Program (TARP).7 On March 25, 2009, the FDIC issued a PCA notification
letter to Lincolnwood based on the results of the joint FDIC and IDFPR February 2009
examination that lowered the bank’s PCA capital category from Well Capitalized to
Critically Undercapitalized. The bank was determined to be Critically Undercapitalized
due to restatements of capital needed for adversely classified assets, restated 2008
earnings, and other adjustments identified during the examination. In addition to being
subject to the requirements and prohibitions contained in the PCA letter, Lincolnwood
was (1) assigned a “5” capital component rating, (2) issued a Notice of Intent to Take
Possession and Control Pursuant to section 51 of the Illinois Banking Act by the IDFPR,
and (3) subjected to a joint section 8b C&D enforcement action.

On April 24, 2009, Lincolnwood submitted a Capital Restoration Plan to the FDIC and
the IDFPR in accordance with the provisions of the PCA letter and C&D. The bank’s
Capital Restoration Plan included three strategies to raise an additional $20 million to
$22 million in capital. Lincolnwood subsequently withdrew its TARP application on
May 29, 2009. The bank was unsuccessful in raising the additional capital under the
terms of the section 51 Notice, and failed on June 5, 2009.




7
 TARP was established under the Emergency Economic Stabilization Act of 2008. Under the TARP, the
Department of the Treasury will purchase up to $250 billion of preferred shares from qualifying institutions
as part of the Capital Purchase Program.


                                                     16
Corporation Comments
After we issued our draft report, we met with management officials to further discuss our
results. The officials indicated that there were no corrections or additions needed to the
report.

On December 14, 2009, the Director, DSC, provided a written response to the draft
report. That response is provided in its entirety as Appendix 4 of this report. DSC
reiterated the OIG’s conclusions regarding the causes of Lincolnwood’s failure. With
regard to our assessment of the FDIC’s supervision of Lincolnwood, DSC stated that the
January 2008 examination resulted in the recommendation for an MOU, which became
effective in October 2008. At the September 2008 visitation, the examiner reviewed
Lincolnwood’s corrective actions, noted continued problems and deterioration, and
recommended that a full-scope examination start in February 2009. As a result of that
examination, a formal enforcement action, effective in April 2009, was issued requiring
Lincolnwood’s Board and management to address weak risk management practices and
formulate a CLP.




                                            17
                                                                               Appendix 1

                     Objectives, Scope, and Methodology


Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from July 2009 to December 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of Lincolnwood’s operations from
December 31, 2003 until its failure on June 5, 2009. Our review also entailed an
evaluation of the regulatory supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

        Analyzed examination reports prepared by the FDIC and the IDFPR examiners
         from 2004 to 2008.

        Reviewed the following:

              Bank data and correspondence maintained at DSC’s Chicago Regional and
               Field Offices.

              Documentation of FDIC offsite monitoring activities.

              Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the bank’s closure. We also reviewed available
               Lincolnwood records maintained by DRR for information that would provide
               insight into the bank's failure.

              Pertinent DSC policies and procedures.


                                             18
                                                                                 Appendix 1

                     Objectives, Scope, and Methodology


        Interviewed the following FDIC officials:

              DSC management in Washington, D.C. and the Chicago Regional Office.

              FDIC examiners from the DSC Chicago Field Office, who participated in
               examinations or reviews of examinations of Lincolnwood.

        Interviewed officials from the IDFPR to discuss the historical perspective of the
         institution, its examinations, and other activities regarding the state's supervision
         of the bank.

        Researched various banking laws and regulations, including State of Illinois laws.

Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports,
examination reports, and interviews of examiners to understand Lincolnwood’s
management controls pertaining to causes of failure and material loss as discussed in the
body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                               19
                                                                                  Appendix 2

                                Glossary of Terms


      Term                                           Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and
Losses (ALLL)       lease portfolio (including all binding commitments to lend). To the extent
                    not provided for in a separate liability account, the ALLL should also be
                    sufficient to absorb estimated loan losses associated with off-balance sheet
                    loan instruments such as standby letters of credit.
Call Report         Consolidated Reports of Condition and Income (also known as the Call
                    Report) are reports that are required to be filed by every national bank,
                    state member bank, and insured nonmember bank pursuant to the Federal
                    Deposit Insurance Act. These reports are used to calculate deposit
                    insurance assessments and monitor the condition, performance, and risk
                    profile of individual banks and the banking industry.
Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound practice
                    or a violation of laws and regulations. A C&D may be terminated when
                    the bank’s condition has significantly improved and the action is no longer
                    needed or the bank has materially complied with its terms.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.
Memorandum of       The memorandum of understanding is a means of seeking informal
Understanding       corrective administrative action from institutions considered to be of
(MOU)               supervisory concern, but which have not deteriorated to the point where
                    they warrant formal administrative action.
Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective          institutions at the least possible long-term cost to the DIF. Part 325 of the
Action (PCA)        FDIC Rules and Regulations, 12 Code of Federal Regulations, section
                    325.101, et. seq., implements section 38, Prompt Corrective Action, of the
                    FDI Act, 12 United States Code section 1831o, by establishing a
                    framework for taking prompt supervisory actions against insured
                    nonmember banks that are less than adequately capitalized. The following
                    terms are used to describe capital adequacy: (1) Well Capitalized,
                    (2) Adequately Capitalized, (3) Undercapitalized, (4) Significantly
                    Undercapitalized, and (5) Critically Undercapitalized. A PCA Directive is
                    a formal enforcement action seeking corrective action or compliance with
                    the PCA statute with respect to an institution that falls within any of the
                    three categories of undercapitalized institutions.




                                             20
                                                                            Appendix 2

                            Glossary of Terms


     Term                                      Definition
Uniform Bank    The UBPR is an individual analysis of financial institution financial data
Performance     and ratios that includes extensive comparisons to peer group performance.
Report (UBPR)   The report is produced by the Federal Financial Institutions Examination
                Council for the use of banking supervisors, bankers, and the general public
                and is produced quarterly from Call Report data submitted by banks.




                                        21
                                                                  Appendix 3

                          Acronyms


ADC      Acquisition, Development, and Construction

ALLL     Allowance for Loan and Lease Losses

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity
         to Market Risk

CLP      Contingency Liquidity Plan

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

FIL      Financial Institution Letter

IDFPR    Illinois Department of Financial and Professional Regulation

MOU      Memorandum of Understanding

OIG      Office of Inspector General

PCA      Prompt Corrective Action

ROE      Report of Examination

TARP     Troubled Asset Relief Program

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System




                                 22
